Report No. D-2011-039               March 11, 2011




     American Recovery and Reinvestment Act Projects
        at the California Army National Guard and
            the Wisconsin Army National Guard
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ARNG                          Army National Guard
CA ARNG                       California Army National Guard
FAD                           Funding Authorization Document
QMAD                          Quantitative Methods and Analysis Division
WI ARNG                       Wisconsin Army National Guard
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 




                                                                           MAR 11 2011


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               CHIEF, NATIONAL GUARD BUREAU
               COMMANDING GENERAL, CALIFORNIA ARMY
                 NATIONAL GUARD
               COMMANDING GENERAL, WISCONSIN ARMY
                 NATIONAL GUARD

SUBJECT: 	 American Recovery and Reinvestment Act Projects at the California Army
           National Guard and the Wisconsin Army National Guard
           (Report No. D-2011-039)

We are providing this report for your infOlmation and use. California Army National
Guard and Wisconsin Army National Guard personnel adequately planned, funded,
initially executed, and tracked and repOlted on four projects to ensure the appropriate use
of Recovery Act funds. We performed this audit in response to the requirement of Public
Law 111-5, "American Recovery and Reinvestment Act of 2009," February 17,2009.
No written response to this report was required, and none was received. No additional
comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Donald A. Bloomer at (703) 604-8863 (DSN 664-8863).



                                         (\    I   )
                                     \~ Alice F. Carey
                                                       (\.   J-. .c"\
                                     '\S Assistant Inspector General
                                         Readiness, Operations, and Support
 
Report No. D-2011-039 (Project Nos. D2010-D000LG-0167.000                          March 11, 2011
                       and D2010-D000LG-0168.000)

              Results in Brief: American Recovery and
              Reinvestment Act Projects at the California
              Army National Guard and the Wisconsin Army
              National Guard
                                                       place to track and report on Recovery Act
What We Did                                            projects at the installations. Specifically, both
Our objective was to evaluate DoD’s                    installations had plans in place to report on the
implementation of Public Law 111-5,                    projects and post the information on a Web site
“American Recovery and Reinvestment Act                available to the public in accordance with the
of 2009,” February 17, 2009 (Recovery Act).            Recovery Act.
Specifically, we reviewed the planning, funding,
initial execution, and tracking and reporting of       What We Recommend
four projects valued at $12 million for the            This report contains no recommendations.
California Army National Guard and the
Wisconsin Army National Guard to ensure the            Management Comments
appropriate use of Recovery Act funds.                 We do not require a written response to this
                                                       report. Therefore, we are publishing it in final
What We Found                                          form.
Personnel at the California Army National
Guard and the Wisconsin Army National Guard
justified four Recovery Act projects valued at
$12 million. Further, personnel at both
installations complied with the Recovery Act’s
accountability and transparency goals.
California Army National Guard and Wisconsin
Army National Guard personnel properly
planned the four projects reviewed, including
supporting the need for the projects. Also,
personnel at both installations appropriately
distributed Recovery Act funds. The funding
authorization documents properly identified the
funds as Recovery Act. California Army
National Guard and Wisconsin Army National
Guard personnel initially executed projects in
accordance with Recovery Act requirements.
Three of the four projects we reviewed were
executed in accordance with State contracting
requirements, and the remaining project was
executed in accordance with Federal contracting
requirements. In addition, California Army
National Guard and Wisconsin Army National
Guard personnel had adequate procedures in

                                                   i
 
Table of Contents

Introduction                                                                   1


      Objective                                                                1

      Recovery Act Background                                                  1

      Review of Internal Controls                                              3



California and Wisconsin Army National Guards Met the Recovery Act’s Goals of 

  Accountability and Transparency                                              4


      Projects Adequately Planned                                              4

      Recovery Act Funds Appropriately Distributed for Projects                5

      Projects Initially Executed in Accordance With Requirements              6

      Procedures Were in Place to Track and Report on Projects                 6


Appendices

      A. Scope and Methodology                                                8

      B. Recovery Act Criteria and Guidance                                  10 

Introduction
Objective
Our objective was to evaluate DoD’s implementation of Public Law 111-5, “American
Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, initial execution, and tracking and
reporting of four projects valued at $12 million at the California Army National Guard
(CA ARNG) and the Wisconsin Army National Guard (WI ARNG) to ensure the
appropriate use of Recovery Act funds. See Appendix A for a discussion of our scope
and methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management. Criteria for planning and implementing the
Recovery Act are listed in Appendix B.

DoD received approximately $6.6 billion1 in Recovery Act funds for projects that support
the purposes of the Act. The Army National Guard (ARNG) received approximately
$315.3 million for Recovery Act projects. See Table 1 for the specific amounts allocated
to each appropriation.

           Table 1. Recovery Act Appropriations for Army National Guard
                        Appropriation                     Amount (millions)
    Operation and Maintenance                                  $265.3
    Military Construction                                        50.0
      Total                                                    $315.3

Of the $265.3 million appropriated to Operations and Maintenance, the ARNG allocated
approximately $9.8 million to the CA ARNG and $6.3 million to the WI ARNG.


1
 The $6.6 billion does not include $4.6 billion for the U.S. Army Corps of Engineers, $555 million for the
Homeowners Assistance Fund, or $260.5 million that was rescinded on August 10, 2010, by Public
Law 111-226, Title III, and “Rescissions.”




                                                     1

In addition, ARNG allocated to the CA ARNG approximately $1.3 million of the
$50.0 million appropriated to Military Construction. We reviewed two projects at the
CA ARNG and two projects at the WI ARNG with a combined value of approximately
$12 million. See Table 2 for a comprehensive list of the projects reviewed and the funds
allocated to each.

  Table 2. Projects Reviewed at California and Wisconsin Army National Guards
                Title                    Number         Method Of            Cost
                                                        Execution          Estimate
                                                                            ($000)
 California Army National Guard
 Projects
 Renovation (Roof, HVAC,                 06E9026       State Contract        $1,500
 Interior & Exterior, Paint Break
 room) Santa Ana
 Upgrade Building Systems                06L9002          Federal             7,121
 Hangar Roof, Los Alamitos                                Contract
 Total of Recovery Act Funds                                                 $8,621
 Allocated to Projects Reviewed
 at the CA ARNG
 Wisconsin Army National Guard
 Projects
 Upgrade Admin Building Camp           5520090040      State Contract        $2,255
 Williams 200 Area (Energy
 SystEMS)
 Upgrade Madison Hangar Pods 7         5520090031      State Contract        1,180
 and 8
 Total of Recovery Act Funds                                                 $3,435
 Allocated to Projects Reviewed
 at the WI ARNG
 Total of Projects Reviewed at                                              $12,056
 the CA ARNG and the
 WI ARNG

The CA ARNG and the WI ARNG are headquartered at Sacramento, California, and
Madison, Wisconsin, respectively. The National Guard serves different missions as
necessary. During Federal missions, the National Guard “provide[s] properly trained and
equipped units for prompt mobilization for war, National emergency or as otherwise
needed.” During State emergencies, the National Guard “provide[s] trained and
disciplined forces for domestic emergencies.”

The Recovery Act projects managed by the CA ARNG were executed under one State
contract and one Federal contract. The Recovery Act projects managed by the
WI ARNG were executed under two State contracts. To govern the three State contracts,


                                           2

the National Guard Bureau and the States entered into a “Special Military Cooperative
Agreement (Cooperative Agreement).” The CA ARNG entered into its agreement in
June 2009, and the WI ARNG entered into its agreement in July 2009. The Cooperative
Agreement establishes terms, conditions, and policy and administrative procedures for
executing Recovery Act projects and reimbursing the State with Federal funds.
CA ARNG followed Federal contracting procedures to execute the one Federal contract.

Review of Internal Controls
The CA ARNG and the WI ARNG internal controls over the planning, funding, initial
execution, and tracking and reporting of the four Recovery Act projects subject to our
review were effective as they applied to the audit objectives.




                                            3

California and Wisconsin Army National Guards
Met the Recovery Act’s Goals of Accountability
and Transparency
CA ARNG and WI ARNG personnel justified the four projects valued at $12 million and
met the Recovery Act’s goals of accountability and transparency. The CA ARNG and
the WI ARNG properly planned, funded, and initially executed the four Recovery Act
projects reviewed—two at CA ARNG and two at WI ARNG. Additionally, the
CA ARNG and the WI ARNG had procedures in place to track and report on the projects
as required by the Recovery Act.

Projects Adequately Planned
CA ARNG and WI ARNG personnel properly planned the four projects reviewed. Each
of the projects included a justification that supported the need for the projects on its
project request form. Personnel at the installations also performed an economic analysis
for each project to ensure that it used the most cost-effective method.

California Army National Guard Properly Planned Santa Ana and Los
Alamitos Projects
CA ARNG personnel appropriately planned the two Recovery Act projects, “Renovation
(Roof, HVAC, Interior & Exterior Paint, Break room) Santa Ana” and “Upgrade
Building Systems Hangar Roof, Los Alamitos.” Personnel at the CA ARNG also
provided the proper planning documentation for the projects. For the Santa Ana project,
personnel at CA ARNG provided a project description on the National Guard Bureau
Form 420-R, “OMNG [Operations and Maintenance National Guard] Project Request”
supporting the need for the project. Specifically, the Santa Ana project will assist the
CA ARNG by bringing the facility into compliance with current industrial and safety
codes.

For the Los Alamitos project, personnel at the CA ARNG provided a project description
on the DD Form 1391, “Military Construction Project Data,” supporting the need for the
project. The DD Form 1391 states that the project is being executed because the roof,
windows, heating, ventilating, and air conditioning systems need replacing to prevent
further deterioration, comply with industrial health and safety codes, and improve energy
efficiency. CA ARNG personnel completed an economic analysis for both projects and
determined that it was cost-effective to renovate the Santa Ana facility by adding a larger
work bay to accommodate larger vehicles and to renovate the Los Alamitos facility to
bring the building in compliance with current industrial health and safety codes.

Wisconsin Army National Guard Properly Planned Camp Williams
200 Area and Madison Hangar Pods 7 and 8 Projects
WI ARNG personnel properly planned the two Recovery Act projects, “Upgrade Admin
Building Camp Williams 200 Area (Energy [SystEMS])” and “Upgrade Madison Hangar
Pods 7 and 8.” Personnel at the WI ARNG also provided a project description on the
National Guard Bureau Form 420-R that supported the need for the projects.


                                             4

Specifically, personnel at the WI ARNG reported that the Administration Building Camp
Williams 200 Area was constructed in 1940 and consists of a concrete masonry unit
exterior wall and rafter roof. The building needed upgrading because the walls were not
insulated and there was little or no insulation in the attic. Personnel at the WI ARNG
planned “to upgrade Madison Hangar Pods 7 and 8 because the existing facility was
severely undersized and unable to accommodate their new UH-60 Blackhawk
helicopters.” In addition, “the space was not insulated, had poor lighting, and included a
heating system that had been deactivated for years.”

WI ARNG personnel completed an economic analysis on each project that determined it
was most cost-effective to renovate Administration Building Camp Williams 200 Area
and Madison Hangar Pods 7 and 8. Also, the economic analysis determined that
renovating 14 buildings of the Camp Williams 200 Area would provide personnel with an
administrative facility at a centralized location within the State to perform processing
functions related to the State. Finally, renovating Hangar Pods 7 and 8 would provide
personnel with increased safety and meet the project objective to provide an
11,821 square foot maintenance and storage hangar.

Recovery Act Funds Appropriately Distributed for
Projects
The California Army National Guard and the Wisconsin Army National Guard properly
distributed the Recovery Act funds allocated to the installations. The funding
authorization documents (FADs) properly identified the funds as Recovery Act, and both
installations have plans in place to use bid savings2 in accordance with Office of the
Under Secretary of Defense (Comptroller), “Project Cost Variations during Execution of
American Recovery and Reinvestment Act Expenditure Plans for Infrastructure
Investments,” May 7, 2009.

Proper Distribution of Recovery Act Funds at the California Army
National Guard
Comptroller personnel at the National Guard Bureau properly distributed Recovery Act
funds to the CA ARNG for the execution of Recovery Act projects. Comptroller
personnel sent the Facilities Sustainment, Restoration, and Modernization and Military
Construction funds to the CA ARNG in two separate FADs for the Santa Ana and Los
Alamitos projects, respectively. The National Guard Bureau sent the Facilities
Sustainment, Restoration, and Modernization funds on May 1, 2009, and the Military
Construction funds on January 3, 2010. The FADs sent to the CA ARNG properly
identified the funds as “Recovery Act funds.” The CA ARNG bid savings were applied
to other previously approved Recovery Act projects that contracted above estimates.
Personnel at the CA ARNG completed this step in accordance with the memorandum
from the Office of the Under Secretary of Defense (Comptroller), “Project Cost
Variations during Execution of American Recovery and Reinvestment Act Expenditure
Plans for Infrastructure Investments,” May 7, 2009.

2
    Bid Savings are created when a bid comes in lower than budget.


                                                      5

Proper Distribution of Recovery Act Funds at the Wisconsin Army
National Guard
Comptroller personnel at the National Guard Bureau properly used a FAD to distribute
Recovery Act funds to the WI ARNG on May 1, 2009, and May 12, 2009. The FAD
properly identified the funds as “Recovery Act funds.” WI ARNG personnel applied bid
savings to other previously approved Recovery Act projects that contracted above
estimates. WI ARNG personnel completed this step in accordance with the
memorandum from the Office of the Under Secretary of Defense (Comptroller), “Project
Cost Variations during Execution of American Recovery and Reinvestment Act
Expenditure Plans for Infrastructure Investments,” May 7, 2009.

Projects Initially Executed in Accordance With
Requirements
CA ARNG and WI ARNG personnel initially executed projects in accordance with
Recovery Act requirements. Three of the four projects we reviewed were executed in
accordance with State contracting requirements, and the remaining project was executed
in accordance with Federal contracting requirements.

California Army National Guard Properly Executed the Santa Ana and
Los Alamitos Projects
CA ARNG personnel issued one State contract and one Federal contract for the Recovery
Act projects we reviewed. For the State-executed contract, personnel at the CA ARNG
used State procurement laws to govern the contracts in accordance with the Cooperative
Agreement. Personnel at the CA ARNG executed the Federal project according to
Federal procedures as required in the Recovery Act. CA ARNG personnel posted the
project to the Federal Business Opportunities Web site. The solicitation mechanisms the
CA ARNG personnel used for the State and Federal projects promoted transparency of
Recovery Act funds.

Wisconsin Army National Guard Properly Executed Projects for Camp
Williams 200 Area and Madison Hangar Pods 7 and 8
WI ARNG personnel issued State contracts for the two Recovery Act projects we
reviewed. Personnel at the WI ARNG used State procurement laws to govern the
contracts in accordance with the cooperative agreement. The State solicitation
mechanism used to solicit the two projects promotes transparency of Recovery Act funds
by making the bids available to the public.

Procedures Were in Place to Track and Report on
Projects
CA ARNG and WI ARNG personnel had adequate procedures in place to track and
report on Recovery Act projects at the installations. Specifically, both installations had
plans in place to report on projects in accordance with Section 1512 of the Recovery Act.




                                            6

California Army National Guard Adequately Tracked and Reported on
Santa Ana and Los Alamitos Projects
CA ARNG personnel had adequate procedures in place to track and report on projects.
The CA ARNG had quality assurance plans in place to help evaluate whether contractors
met the performance standards. As part of the quality assurance plan, the CA ARNG
assigned a Quality Control Inspector to ensure the work was completed according to
design specifications and contract requirements. In addition, personnel at the CA ARNG
held progress meetings each month to ensure the project remained on schedule and the
work met design specifications and contract requirements. The Contractor, Program
Manager, Quality Control Inspector, and the representatives from the architecture and
engineering firm attended those meetings. The Project Manager collected information
from the contractors to compile the report required under Section 1512 of the Recovery
Act and posted the report on https://www.federalreporting.gov.

Wisconsin Army National Guard Adequately Tracked and Reported on
Camp Williams 200 Area and Madison Hangar Pods
WI ARNG personnel had adequate procedures in place to track and report projects and
had a quality assurance plan in place to help ensure that contracting procedures, quality
control, and timelines were met. The State of Wisconsin Division of State Facilities
ensured that contractors used procedures set forth in the scope of work. In addition to
monitoring the contractors, the Department of Military Affairs compiled the report
required under Section 1512 of the Recovery Act and provided the report to the Office of
Recovery and Reinvestment for posting on https://www.federalreporting.gov.




                                            7

Appendix A. Scope and Methodology
We conducted this audit from February 2010 to March 2011 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence and provide a reasonable
basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions.

Scope
The Army National Guard received $315.3 million in Recovery Act funds for Operations
and Maintenance and Military Construction. Of the $315.3 million, $9.8 million was
allocated to the CA ARNG and $6.3 million to the WI ARNG. We assessed four projects
to determine whether personnel at the CA ARNG and the WI ARNG complied with the
Recovery Act, Office of Management and Budget Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009, and the Special Military Cooperative Agreement. With the assistance of
the Quantitative Methods and Analysis Division (QMAD) of the DoD OIG, we selected
two projects at the CA ARNG and two projects at the WI ARNG to review.

During our visit to the CA ARNG and the WI ARNG, we interviewed the Construction
Facilities Management Officers and the United States Property and Fiscal Officers. In
addition, we interviewed personnel at each installation who play a role in the execution of
Recovery Act funds. Specifically, at the CA ARNG we interviewed personnel from the
Facilities, Operation and Maintenance Division; Comptroller Office; and the Plans,
Programming, and Construction Division. At the WI ARNG, we interviewed personnel
from the Planning and Programming Branch, the Project Management Branch, and the
State Budgeting Office. Additionally, we obtained supporting documentation, including
the National Guard Bureau Form 420-R, “OMNG Project Request,” the DD Form 1391,
justifications, contract documents, and funding reports. We provided our preliminary
results to personnel at the CA ARNG and the WI ARNG.

Methodology
Before selecting DoD Recovery Act projects for audit, QMAD analyzed all DoD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each project. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed them to quantify the risk
based on expert auditor judgment as well as other quantitatively developed risk
indicators. QMAD used information collected from all projects to update and improve
the risk assessment model. QMAD selected 83 projects with the highest risk rankings;
auditors chose some additional projects at the selected locations.

QMAD used additional predictive analytic techniques for two other special cases: (1)
projects performed jointly with State National Guard units in the 50 States and (2) public
works projects funded directly through the U.S. Army Corps of Engineers. QMAD
factored in workload volume, proposed costs, geographic districts, and U.S. Army Corps


                                            8

of Engineers districts and regions in evaluating the relative risk of problems with
oversight and completion.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by the U.S. Army Corps of Engineers.

Use of Computer-Processed Data
During our visit to both installations, the team reviewed the project request forms
generated by the PRIDE Web to verify that each form contained a justification for each
project. We tested the accuracy of the PRIDE Web data by comparing the projects
contained on the forms with the list of projects approved for Recovery Act funding in the
DoD Expenditure Plan.

Reliability of Data at the California Army National Guard
We relied on computer-processed data from BIDSync, Standard Army Finance
Information System, and the California State Accounting and Reporting System.
BIDSync helps agencies organize, automate, and manage their procurement and
purchasing processes. We verified that the information posted to BIDSync matched the
data contained in the hard copy contract files.

Reliability of Data at the Wisconsin Army National Guard
We relied on computer-processed data from WISBuild, Consolidated Armory Stores and
Tuition Grant System, and WESSTEM 360. The WI ARNG Department of
Administrator Services publicizes solicitation information for the projects executed on
WISBuild. The WISBuild system is a secure State Web site used to manage activities
related to State building projects. The WISBuild system includes the solicitation
documents along with the project specifications. We verified that the information posted
to WISBuild matched the data contained in the contract. The information contained in
WISBuild can be viewed by the public and by other bidders. Payments made on the
Recovery Act projects are tracked through the Consolidated Armory Stores and Tuition
Grant System.

We determined that the data were sufficiently reliable for our audit purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing
DoD projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                             9

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list) and State guidance for California and Wisconsin:

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending
      September 30, 2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009



                                           10

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 2009

    	 California Department of General Services, Office of Legal Services, “State
       Contract Manual ,” October 2005

    	 Department of Administration, Wisconsin Administrative Code, May 2006




Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
Recovery Act. The guidance states that the President’s commitment is to ensure that public funds are
expended responsibly and in a transparent manner to further job creation, economic recovery, and other
purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.

.



                                                   11

